*

No.

20-55^
Supreme Court, U.S.
FILED

AUG 0 3 2020
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

MICHAEL WITKIN

— PETITIONER

(Your Name)

vs.
MARIANA LQTERSZTAIN, et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

the United States Court of Appeals for the Ninth Circuit_____
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MICHAEL WITKIN

(Your Name)
PVT, 23500 Kasson Road
(Address)
Tracy, CA 95304

(City, State, Zip Code)

(Phone Number)

AUG 2 8 2020
sGp^Va^RK

QUESTION(S) PRESENTED
The Eighth Amendment prohibition of cruel and unusual punishment prohibits
the unnecessary and wanton infliction of pain. Prison officials violate the Eighth
Amendment when they act with deliberate indifference to a prisoner's serious
medical needs by refusing to provide minimally adequate medical care. Eighth
Amendment cases arising under 42 U.S.C. §1983 are acute and recurring in the
State of California where the state maintains a prison population of some 120,000
souls, and as the Court has observed in passing, the "prison medical care system
is broken beyond repair." Brown v. Plata, 179 L.Ed.2d 969, 985 (2011). The
dispositive question in these cases is often whether the medical care provided
violates professional standards of care.
In California prison officials' standard response to such allegations is to
move for summary judgment, having their employee expert witness physician
summarily declare to the federal court that the care provided met minimal
professional standards, which he admittedly declares in 100% of such cases.
Assuming the prisoner plaintiff lacks there wherewithal to secure a medical expert
with a conflicting opinion, that concludes the Eighth Amendment matter, as this
case illustrates. The net effect is to nullify this Court's Eighth Amendment
jurisprudence and to embolden prison officials to continue to refuse to provide
minimally adequate medical care.
There is a decades long circuit split on the question of law of whether expert
medical testimony is necessary for an inadequate medical care deliberate
indifference claim to survive a motion for summary judgment.
The questions presented are:
(1) At the summary judgment stage, is the plaintiff's failure to produce expert
medical testimony condemning the care provided fatal to an inadequate medical
care deliberate indifference claim?

(2) Do the standards of Federal Rule of Evidence 702 for expert opinon testimony
apply at the summary judgment stage to an expert opinion that is unopposed by
a conflicting expert opinion?

///

ii

\.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows: Respondents were the defendants in the District Court
Mariana Lotersztain is a primary care physician at California State Prison
Solano ("SOL").
Martin Kuersten is a physician and chief medical executive at SOL.
Ashley Pfile is a physician and surgeon at SOL.

RELATED CASES
Witkin v. Lotersztain, No. 18-16040, U.S. Court of Appeals for the Ninth
Circuit. Panel rehearing denied and Judgment entered March 25, 2020.
Witkin v. Lotersztain, No. 2:15-cv-00638-MCE-KJN, U.S. District Court
for the Eastern District of California. Judgment entered May 25, 2018.

iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

11

I. THIS CASE OFFERS A SUPERB VEHICLE FOR THE COURT TO RESOLVE THE
CIRCUIT SPLIT BECAUSE THE EXPERT OPINION IN THIS RECORD IS
THE SOLE BASIS FOR THE JUDGMENT.......................................................

11

A. The Legal Question Presented Is Of National Importance,
Recurs Constantly, And Speaks To The Conscience Of The Nation

13

B. The Decision Below Is Erroneous And Warrants Review
For Its Cavalier Treatment Of Summary Judgment Standards

14

II. THIS CASE OFFERS A SUITABLE VEHICLE TO ADDRESS THE QUESTION
PRESENTED BECAUSE THE EXPERT'S DEPOSITION ILLUSTRATES THAT
HIS OPINION IS THE QUINTESSENTIAL PIECE OF JUNK SCIENCE____

15

A. The Ninth Circuit's Holding Makes Junk Science, The Primary
Concern Of Daubert, Decisive 6f Federal Constitutional
Questions And Warrants Summary Reversal...................................

16

B. The Ninth Circuit's Holding Is Truly Indefensible
And Poses A Sinister Threat To The Institutional~Integrity'
Of The Federal Courts................................... .......... ...................

18

CONCLUSION

19

///

iv

INDEX TO APPENDICES
APPENDIX A: Unpublished Opinion of the United States Court of Appeals
for the Ninth Circuit in Case No. 18-16040 (May 28, 2019)..........................

la

APPENDIX B: Unpublished Order and Findings And Recommendations
of the District Court (February 26, 2018).....................................

5a

APPENDIX C: Unpublished Order of the District Court Adopting
Findings and Recommendations (May 15, 2018)..........................................

56a

APPENDIX D: Unpublished Order of the United States Court of Appeals
for the Ninth Circuit Denying Rehearing (March 25, 2020)...................

58a

APPENDIX E: Judgment of the United States Court of Appeals
for the Ninth Circuit (March 25, 2020)...................................

59a

APPENDIX F: Federal Rule of Civil Procedure 56 text

60a

APPENDIX G: Declaration of Bruce Barnett, M.D. (April 8, 2016)

66a

APPENDIX H: Amended Declaration of Bruce Barnett, M.D.
(April 6, 2017)............................. .......................................

86a

APPENDIX I: Research Document submitted at Barnett Deposition.

103a

APPENDIX J: Deposition of Bruce Barnett, M.D. (March 28, 2017)

104a

APPENDIX K: Medical Records Excluded from Defendants'
Motion for Summary Judgment..........................................

440a

APPENDIX L: Medical Records from Defendants' Motion
for Summary Judgment......................................................

443a

///

v

TABLE OF AUTHORITIES
CASES

Page(s)

Alberson v. Norris

458 F.3d 762 (8th Cir. 2006)

11, 12

Anthony v. Swanson
701 Fed.Appx. 460 (6th Cir. 2017)

12, 15

Bell v. Wolfish
441 U.S. 520 (1979)

11

Brown v. Plata
179 L.Ed.2d 969 (2011)

19

Campbell v. Sikes
169 F.3d 1353 (11th Cir. 1999)

12

Daubert v. Merreil Dow Pharmaceuticals
509 U.S. 579 (1993)

passim

Dodge y. Cotter Corp.
328 F.3d 1212 (10th Cir. 2003)

17

Estelle v. Gamble
429 U.S. 97 (1976)

14

Farmer v. Brennan
511 U.S. 825 (1994)

11, 12, 13

General Electric v. Joiner
522 U.S. 136 (1997)

17

Hathaway v. Coughlin
37 F.3d 63 (2d Cir. 1994)

12

Kumho Tire v. Carmichael
526 U.S. 137 (1999)

17

Pearson v. Prison Health Serv.
850 F.3d 526 (3d Cir. 2017)

13

Santiago v. Ringle
734 F.3d 585 (5th Cir. 2013)

12

Sartor y. Arkansas Nat. Gas Corp.
321 U.S. 520 (1944)

11

Scinto v. Stansberry
841 F.3d 219 (4th Cir. 2016)

12, 13

vi

Smith v. Office of Personnel Management
784 F.2d 397 (Fed. Cir. 1986)

18

Staggs v. Doctors Hospital of Manteca
2018 U.S. Dist. LEXIS 46689 (E.D. Cal.)

10, 11

Tolan v. Cotton
134 S.Ct 1861 (2014)

14

Turner v. Iowa Fire Equip. Co.
229 F.3d 1202 (8th Cir. 2000)

11

Watson v. Sisto
2011 U.S. Dist. LEXIS 125171 (E.D. Cal.)

13

Weisgram v. Marley Co.
528 U.S. 440 (2000)

16

CONSTITUTIONAL PROVISION
Eighth Amendment

passim

STATUTES AND RULES
42 U.S.C. §1983

5, 8, 9, 12, 15

Federal Rule of Civil Procedure 56w..,

3

Federal Rule of Civil Procedure 56(c).

12, 15

Federal Rule of Civil Procedure 55(d).

7
3, 8, 9, 16, 17

Federal Rule of Evidence 702
Federal Rule of Evidence 702(a)

12, 16

///

vii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Was

May 7ft t 7010___________ _

[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: March 25, 2020
and a copy of the
order denying rehearing appears at Appendix
P
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution Eighth Amendment:
Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.
Federal Rule of Evidence 702:
A witness who is qualified as an expert by knowledge, skill,
experience, training, or education may testify in the form of
an opinion or otherwise if:
(a) the expert's scientific, technical, or other specialized
knowledge will help the trier of fact to understand the evidence
or to determine a fact in issue;
the testimony is based on sufficient facts or data;
the testimony is the product of reliable principles and
methods; and
(d) the expert has reliably applied the principles and methods
to the facts of the case.

8

Federal Rule of Civil Procedure 56:
i

'

■

^

^

The full text of Rule 56 is set out at Petition Appendix F.

3

STATEMENT OF THE CASE
In early December 2012, the then 35 year old petitioner, a California state
prisoner described by a defendant physician as "very athletic," (ECF No. 11 at
2)*, and "extremely well built with high muscular mass," (ECF No. 11-2 at 2),
sustained a debilitating injury to his lumbar spine while exercising on the prison
yard. Petitioner was "unable to ambulate or stand," (ECF No. 30-9 at 9, see Pet.
App. L), and was transported to the prison clinic where staff physicians including
defendant Kuersten, discussed "transfer to [an] outside hospital for further
evaluation." (ECF No. 30-9 at 10, App. L).
Defendant Dr. Kuersten ultimately decided to give the petitioner a series of
pain-killing injections, and return him to his prison housing unit in a
wheelchair. Upon arriving in the barracks style dormitory petitioner needed
assistance from other inmates to perform basic daily tasks such as showering
and using the bathroom. (ECF No. 72 at 64).
Petitoner continued to experience difficulty walking, accompanied by shooting
pain in his right leg and requested additional medical care on December 9, 2012
complaining of "extremely severe back pain." (ECF No. 30-9 at 14, App. L.)
Plaintiff was treated on December 12 by defendant Dr. Pfile who lied about
petitioner's condition, placing into the medical records that he was "90Z
recovered." (ECF No. 30-9 at 15, App. L.)
Petitioner's symptoms did not improve and he continued to experience severe
pain and mobility loss. On December 21, 2012 non-party physician Dr. Hsieh
reviewed initial diagnostic test results of petitioner's lumbar spine and
determined that the injury required "chronic care." (ECF No. 72 at 195, see Pet.
App. K.) Petitioner was a new arrival at that institution as of September 7,

1) ECF References are to the District Court Electronic Court File docket entries.
4

2012, (ECF No. 72 at 189, App. K), and had recently been found to be a "[h]ealthy
adult male" by defendant Pfile. (ECF No. 30-9 at 2, 4pp. L). On January 9, 2013
petitioner had a medical encouter with defendant Kuersten who terminated the
encounter for the non-medical reason of his personal animosity towards petitioner.
(ECF No. 30-9 at 19, App. L). Petitioner continued to struggle with severe pain
and mobility loss. On April 4, 2013 defendant Pfile diagnosed him with chronic
lower back pain ("CLBP"). (ECF No. 72 at 197, App. K).
Petitioner's condition did not improve and in June of 2013 he had a medical
encounter with defendant Dr. Lotersztain who informed him that he "probably had
a collapsed or ruptured disc in his lumbar spine." (ECF No. 1 at 8). After
receiving that information petitioner began requesting further diagnostic testing,
including an MRI study, and referral to a specialist, as well as prescription
strength medication for the pain. Defendant Lotersztain denied petitioner's
requests repeatedly, in spite of his diminished condition, over an approximately
two year period that included over 30 medical encounters. In August of 2013
defendant Lotersztain diagnosed CLBP which she identified at numerous

subsequent

encounters. (ECF No. 30-9 at 43, App. L). Defendant Lotersztain repeatedly
"educated" petitioner about the risk of prolonged pain and mobility loss. (Id.,
see ECF No. 30-9 at 53).
Petitioner filed administrative appeals concerning the denials of diagnostic
imaging studies, a specialist referral, and prescription strength medication.
Those appeals were reviewed by defendants Pfile and Kuersten and denied. (ECF
No. 1 at 15-37).
Petitioner suffered at least 30 months of chronic pain, dramatic mobility loss
and assorted neurological symptoms. (App. L). In March of 2015 petitioner brought
an action under 42 U.S.C §1983 claiming that the defendants were deliberately
indifferent to his medical needs for diagnostic care, a specialist referral,
5

and prescription strength medication, in violation of the Eighth Amendment. (ECF
No. 83 at 43-47, App. B). Petitioner also brought state law claims for medical
malpractice. (Id. at 49).
In April of 2016 the defendants moved for summary judgment, basing the motion
exclusively on the expert medical opinion of former California Department of
Corrections and Rehabilitation ("CDCK") staff physician Dr. Bruce Barnett. (See
ECF No. 30; see also ECF No. 30-7, App. G). Dr. Barnett admittedly opines that
CDCR defendant physicians did not violate professional standards 100% of the
_ 2
time. (Barnett Dep. at 54:21-55:7, 56:11-24, 69:6-13, App. J) . As he always
does, Dr. Barnett opined that there was no deliberate indifference because
"Defendants' treatment of Petitioner's] pain complaints was appropriate and
consistent with all authoritative standards of care." (ECF No. 30-7 at 16; see
Barnett Dep. at 30:2-5).
Dr. Barnett purported to rely on his experience as a CDCR physician as the
basis for his opinion. (ECF No. 30-7 at 3). Dr. Barnett's opinion testimony
featured none of the methodology or analytical strategies normally found in expert
medical testimony. Dr. Barnett did not provide a differential diagnosis, or any
basis for his opinion in medical literature. His declaration testimony offered
no articulation of the relevant professional standard of care or explanation
of how and why he reached the conclusion the defendants' care met it. Dr.
Barnett's conclusion was supposedly based on his review of pertinent medical
records, (ECF No. 30-7 at 3), but his conclusion rested on his mistaken assumption
that the injury causing petitioner's CLBP had occurred some 15 moths later then
it actually did. (Id. at 15-16).

2) For ease of review references to the Barnett Deposition are to the pagination
of the deposition itself.
6

In reaching his conclusion Dr. Barnett relied largely on speculation about
petitioner playing basketball during his prison term, which he cited 6 times
as a basis for his opinion in his declaration testimony. (ECF No. 30-7 at 13-16.)
At his subsequent deposition Dr. Barnett conceded that he had no evidence or
information to support that speculation and that the sole medical record reference
to basketball predated petitioner's lumbar injury. (Barnett Dep. at 92-93,
96:11-14).
Petitioner initially responded to the defendants' summary judgment motion with
motions to attempt to develop his factual case through additional discovery under
FRCP 56(d), and amendment of his original complaint. The District Court denied
both motions. (ECF Nos. 46, 62).
On March 28, 2017 petitioner deposed Dr. Barnett with regard to his medical
opinion on the standard of care. (Barnett Dep. at 51:18-20). The medical testimony
adduced at Dr. Barnett's deposition clearly shows that there is a genuine issue
of fact with regard to the adequacy of the medical care provided to petitioner
by the defendants.
Dr. Barnett's deposition research into the "authoritative," (Barnett Dep. at
70), standard of care revealed that "all patients" suffering from CLBP should
be evaluated by a spine specialist, (App. I), and he provided the research
documents at the deposition. (Barnett Dep. at 70:2-11). Dr. Barnett also testified
that an MRI was required after 6 weeks of chronic pain. (id. at 139-40). Dr.
Barnett conceded that petitioner's chronic pain lasted much longer than 6 weeks.
(Id. at 244:18-24, 255:5-22). He further testified that prescription strength
medication was appropriate for herniated disc pain. (id. at 186). Dr. Barnett
confirmed that there were no objective diagnostic tests in the record ruling
out petitioner's subjective complaints of severe pain. (Id. at 158).
When confronted on deposition with the fact that an eyewitness observed
7

petitioner in a physical condition that Dr. Barnett had testified would require
a number of diagnostic tests the defendants never performed, Dr. Barnett delivered
this telling line:
So I don't really know exactly what I'm talking about, but generally
speaking, those kind of impairments over time could reasonably lead
(Barnett Dep. at 197:20-23).
someone to another study.
Dr. Barnett had become visibly upset at that point, and revealed that his entire
opinion rested on disputed facts about petitioner's symptoms and condition.
(Barnett Dep. at 194-203).
Dr. Barnett conceded that "[f]or any condition and complaint, you have to be
able to make a diagnosis because otherwise you can't treat." (Barnett Dep. at
171:11-12). In his opinion testimony Dr. Barnett was unable to point to any
diagnosis of petitioner's medical condition. He was able to identify the symptom
CLBP, but could only surmise that it was "possibly related to DDD," (ECF No.
30-7 at 15), which he tells us is simply "normal aging of the spine." (Id. at
5 n. 3). Dr. Barnett's apparent inability to point to a diagnosis of plaintiff's
medical condition gravely undermined his opinion that the defendants' treatment
of petitioner met professional standards of care. Per Dr. Barnett's own testimony
"you can't treat," (Barnett Dep. at 171:12), until you "make a diagnosis." (Id.)
Dr. Barnett's deposition testimony appeared to confirm the merit of petitioner's
three Section 1983 claims.
Following the Barnett deposition, the defendants re-noticed their motion for
summary judgment, (ECF No. 63),and submitted an "Amended" declaration from Dr.
Barnett. (ECF No. 63-1, App. H).

The Amended declaration included some revised

premises for Dr. Barnett's conclusions. (ECF No. 63-1 at 15 n. 12, 16 n. 13).
On June 1, 2017 petitioner filed a verified Opposition to the motion for summary
judgment and moved to exclude Dr. Barnett's opinion testimony under Fed. R. Evid.
702 and Daubert v. Merrell Dow Pharmaceuticals, 509 U.S. 579 (1993) as being
8

unreliable and irrelevant because it had "no foundation" and was "utterly
unexplained." (ECF No. 72 at 52).
The District Court denied petitioner's motion to strike and disagreed with
petitioner that it should act as a Daubert reliability "gatekeeper." The District
Court held that petitioner "may only rebut Dr. Barnett's expert medical opinion
with the opinion of another medical expert." (ECF No. 83 at 5). The District
Court did not enter any Daubert findings into the record. (Id.)
The District Court believed that the failure to produce a conflicting medical
opinion was fatal to petitioner's §1983 claims eliminating the need for
application of Daubert or Fed. R. Evid. 702, and precluding consideration of
petitioner's "specific facts" in opposition to summary judgment.
Relying on a line of district court cases from the Ninth Circuit the District
Court held that petitioner's failure to provide an "expert medical opinion to
support his claim," obviated the need to consider his evidence opposing summary
judgment. (ECF No. 83 at 43-44). Petitioner introduced a variety of opposition
evidence including expert medical testimony from Dr. Barnett's deposition, medical
records and literature, and lay testimony from himself and other witnesses about
his actual physical condition. (ECF No. 72). Petitioner's evidentiary showing
merited over 20 pages of objections from the defendants indicating that it was
far from insubstantial. (ECF No. 77-1).
The District Court refused to credit petitioner's evidence or acknowledge its
presence in the record. The dispositive facts regarding deliberate indifference
and the standard of care were set out by the defendants as fact Nos. 114-127
(ECF No. 30-3 at 21-24). Petitioner's Statement of Disputed Facts used the same
114-127 numbering. (ECF No. 72 at 136-42). Without explanation, the District
Court concluded its factual analysis at fact No. 113 and never even acknowledged
that petitioner disputed all the dispositive facts, Nos. 114-127. (ECF No. 83
9

at 40 n. 19). Then, drawing multiple inferences in favor of the defendants, all
based on Dr. Barnett's opinion, the District Court granted the defendants' motion
for summary judgment. (ECF No. 83 at 42-48).
The Ninth Circuit summarily affirmed in a memorandum disposition that did not
meaningfully address petitioner's assignments of reversible error. (App. A).
Significantly, the Ninth Circuit held that the District Court ''did not abuse
its discretion" by abdicating its Daubert gatekeeping function. (Id. at 3).
Less than 60 days before petitioner's case was decided this District Court
decided a strikingly similar deliberate indifference and medical malpractice
case. The case even featured the same magistrate judge, but with one key
difference. The plaintiff in that case produced an opposing expert medical opinion
at the summary judgment stage. There the Court held, as petitioner has urged
throughout, (see ECF No. 90 at 48-53), "whether the standard of care was met
— or whether [the defendants'] conduct fell so far below the standard of care
as to constitute a constitutional violation — is a question for the jury, not
for the court on summary judgment." Staggs v. Doctors Hospital of Manteca, 2018
U.S. Dist. LEXIS 46689 at 25 (E.D. Cal.).
///

///

10

REASONS FOR GRANTING THE PETITION
I. THIS CASE OFFERS A SUPERB VEHICLE FOR THE COURT TO RESOLVE THE CIRCUIT SPLIT
BECAUSE THE EXPERT OPINION IN THIS RECORD IS THE SOLE BASIS FOR THE JUDGMENT.
The Court has understandably not looked favorably on the Idea of "experts,"
as opposed to federal judges, deciding what the Constitution requires. See Bell
v. Wolfish, 441 U.S. 520, 543-44 n. 27 (1979) (Expert opinions "are not
determinative of the requirements of the Constitution."). The Court also teaches
that such opinions do not have "conclusive force." Sartor v. Arkansas Nat. Gas
Corp., 321 U.S. 620, 627 (1944). Such opinions add nothing to the scienter
analysis of Farmer v. Brennan, 511 U.S. 825, 836-44 (1994).
Contrary to these principles however, the Courts below relied exclusively on
Dr. Barnett's opinion in holding that the Eighth Amendment was not violated,
without any consideration of petitioner's evidence that it was. As illustrated
by this District Court's decision in Staggs, 2018 U.S. Dist. LEXIS 46889, in
the Ninth Circuit the constitutional question perches precariously on the question
of law of whether an expert medical opinion is necessary to sustain an adequacy
of care deliberate indifference claim at the summary judgment stage.
The Circuit Courts of Appeals have reached divergent holdings on this question.
As this record shows this legal question is of supreme importance because the
answer has the power to displace normal summary judgment standards. If the federal
court determines that an expert medical opinion is required, not only will
inferences not be drawn in the nonmoving party's favor, his evidence will not
be considered at all. As it was here, that was the course taken by the Eighth
Circuit in Alberson v. Norris, 458 F.3d 762 (8th Cir. 2006) over the dissent
of Circuit Judge Heaney, where the majority held that the "failure to produce
expert testimony...is 'fatal to [the] deliberate indifference claim as a matter
of law.'" Id. at 766 (quoting Turner v. Iowa. Fire Equip. Co,, 229 F.3d 1202,
1210 (8th Cir. 2000)). Judge Heaney asserted that the majority should have
11

considered the nonmoving party's evidence, finding that it was "sufficient • • • for
a jury to hold that the corrections employees were deliberately indifferent."
Alberson at 768.
The Sixth Circuit has also held similarly to the Courts below here, that a
deliberate indifference claim premised on inadequate medical care, requires expert
medical testimony to survive a motion for summary judgment. Anthony v. Swanson,
701 Fed.Appx. 460, 464 (6th Cir. 2017). Without discussion of the prisoner
plaintiff's FRCP 56(c) specific facts, that panel held that the "absence of such
medical testimony is fatal to [petitioner's] claim under our precedents." Id.
at 464 (citing Santiago v. Ringle, 734 F.3d 585, 591 (6th Cir. 2013)).
On the other side of the question are the holdings of the Second, Third, Fourth,
and Eleventh Circuits which hold that deliberate indifference claims have no
such requirement. In Hathaway v. Coughlin, 37 F.3d 63, 68 (2d Cir. 1994) the
Court held that:
[w]e have never required plaintiffs alleging a denial of adequate
medical care in a Section 1983 action to produce expert medical
testimony. The inquiry remains whether the treating physician or other
prison official was deliberately indifferent to a prisoner's serious
medical needs, not whether the doctor's conduct is actionable under
state malpractice law.
That holding directly conflicts with the judgment of the Courts below.
In 1999 the Eleventh Circuit addressed the issue and held that an expert
testimony requirement would nullify the Farmer, 511 U.S. 825 standard "of
subjective mental intent." Campbell v. Sikes, 169 F.3d 1353, 1371 (11th Cir.
1999). Facing a district court decision granting summary judgment in a §1983
action, for a "failure to offer expert medical testimony," the Fourth Circuit
held that there is no requirement "that a plaintiff alleging deliberate
indifference present expert testimony to support his allegations of serious injury
or substantial risk of serious injury." Scinto v. Stansberry, 841 F.3d 219, 22930 (4th Cir. 2016). The panel also pointed out that Fed. R. Evid. 702(a) provides
12

the proper standard for determining the necessity of such testimony. Id.
. Even more recently the Third Circuit weighed in, holding that expert testimony
is "not necessarily required where other' forms of extrinsic proof" such as a
training manual, photograph, or medical records "could have permitted a reasonable
jury to find that [the] medical care was inadequate." Pearson v. Prison Health
Serv., 850 F.3d 526, 536 (3d Cir. 2017). The panel went on to conclude that
"medical expert testimony may be necessary in some adequacy of care cases when
the propriety of a particular diagnosis or course of treatment would not be
apparent to a layperson." Id. at 537.
The Circuit Courts of Appeals are unanimous in holding that Farmer, 511 U.S.
825, provides the appropriate standard. How to properly apply Farmer to an
adequacy of care deliberate indifference claim, and synthesize its legal standard
with a possible need for expert medical testimony is a legal question on which
their holdings are widely divergent. That question clearly demands the Court's
guidance. Hence the Court's review of this question of law is warranted.
A. The Legal Question Presented Is Of National Importance, Recurs Constantly,
And Speaks To The Conscience Of The Nation.
Although the holdings of the Sixth and Eighth Circuits are not "controlling"
in the Ninth Circuit, district courts in the Ninth Circuit have been recycling
those holdings, albeit often without acknowledgment, just as the Courts below
did, for at least a decade. See e.g. Watson v. Sisto, 2011 U.S. Dist. LEXIS 125171
at 20-22 (E.D. Cal.) (holding that a plaintiff challenging the adequacy of medical
care has the burden at the summary judgment stage "to provide expert evidence
that the treatment he received equated with deliberate indifference."). So while
it was well known to the Public, and to this Court, that the medical care in
California prisons did not meet Eighth Amendment minimums during the last decade,
only the wealthiest of prisoners stood a chance of vindicating their Eighth
Amendment rights. As the Court is also aware, prisons generally house the poor,
13

not the rich. In other words, this question of law speaks directly to the
conscience of the nation. Are we as a society willing to continue to allow prison
officials to so easily sidestep the Constitution?
In Estelle v. Gamble, 429 U.S. 97, 104-05 (1976) the Court held that prison
officials violate the Eighth Amendment when they are deliberately indifferent
to a prisoner's serious medical needs by "intentionally denying or delaying access
to medical care or interfering with the treatment once prescribed." For over
a decade prison officials in California have set aside the Court's Eighth
Amendment jurisprudence. And quite frankly, by resorting to the holdings of the
Courts below, local district courts have been complicit in allowing such cruel
punishments to remain commonplace. For prison officials denying and interfering
with adequate medical care is as simple as tagging in Dr. Barnett. As he
testified, (Barnett Dep. at 55-56), 100% of the time he will absolve prison
officials from liability. Untold Eighth Amendment transgressions have been wiped
away with a single brush stroke from Dr. Barnett. It is in the hands of this
Court to decide whether Eighth Amendment decisions should be turned over to such
designated hitters.
B. The Decision Below Is Erroneous And Warrants Review For Its Cavalier
Treatment Of Summary Judgment Standards.
The decision below completely disregarded nonmoving party summary judgment
evidence so substantial it merited 20 pages of objections from the defendants.
(See ECF No. 77-2). In Tolan v. Cotton, 134 S.Ct 1861, 1866 (2014) this Court
recently cautioned against a refusal to "credit directly contradictory evidence"
from a nonmoving party. Such is the impact of the holding petitioner asks the
Court to review. It is unclear what exactly triggered the District Court's legal
determination that a lack of expert medical testimony was fatal to petitioner's
adequacy of care deliberate indifference claim. What is clear, however, is that
once that determination is made, none of the nonmoving plaintiff's evidence need
14

even be acknowledged.
The only authority cited in support of this proposition of law is two Arizona
district court decisions. (ECF No. 83 at 43). The District Court could have cited
to the similar holdings from the Sixth and Eighth Circuits, but even in the Sixth
Circuit petitioner would have defeated the defendants' summary judgment motion.
Consistent with FRCP 56(c) the Sixth Circuit would have permitted petitioner
to oppose the motion with the Barnett deposition. See Anthony, 701 Fed.Appx.
at 464. The Courts below refused to acknowledge any of the expert medical
testimony adduced by petitioner at Dr. Barnett's deposition. Their judgment
directly conflicts with the text of Rule 56(c).
In the form of the decision below, a determination of the necessity for expert
medical testimony in a Section 1983 adequacy of care medical indifference action
appears completely arbitrary. The ascertainment of truth and just determinations,
which are the hallmarks of the federal courts, demand more than random,
unexplained results. What triggers the need (if any) for expert medical evidence
in this type of case is a legal question demanding the Court's wisdom. The Court's
review is warranted.
II. THIS CASE OFFERS A SUITABLE VEHICLE TO ADDRESS THE QUESTION PRESENTED BECAUSE
THE EXPERT'S DEPOSITION ILLUSTRATES THAT HIS OPINION IS THE QUINTESSENTIAL
PIECE OF JUNK SCIENCE.
Allowing an expert opinion as wholly lacking as the one offered by Dr. Barnett
in this record to decide federal constitutional questions would gravely impair
the dignity and institutional integrity of the federal courts. Dr. Barnett's
deposition testimony reveals the medical knowledge he actually possesses. That
testimony makes it abundantly clear that the defendants did not meet professional
standards of care in their treatment of petitioner. His opinion to the contrary
should not be unexpected from an individual who delivers such opinions 100% of
the time. Dr. Barnett's opinion does not satisfy the requirements of any of the
15

subsections of Fed. R. Evid. 702. Dr. Barnett provided an opinion, but it is
not a scientific one, and it is not one supported by any kind of proper
validation.
By the end of his deposition even Dr. Barnett had disavowed the opinion upon
which the judgment below rests. Dr. Barnett's vociferous "no chance," (ECF No.
30-7 at 15), that a person with a lumbar disc injury could play basketball had
been replaced by the scientific knowledge that he actually has. He informs us
that a nerve root injury can "still allow you to engage in a number of activities
with or without symptoms that follow from activities." (Barnett Dep. at 309).
Dr. Barnett even goes so far as to inform us that it is possible, although
"unlikely" that an individual with a "massive herniated disc • • • .can engage in
vigorous physical activities." (Id.)
An opinion that directly contradicts the "specialized knowledge," (Fed. R.
Evid. 702(a)), that the witness actually has, does not meet "exacting standards
of reliability," and should have been deemed inadmissible by the Courts below.
Weisgram v. Marley Co., 528 U.S. 440, 455 (2000) (citing Daubert, 509 U.S. at
590).
A. The Ninth Circuit's Holding Makes Junk Science, The Primary Concern Of
Daubert, Decisive Of Federal Constitutional Questions And Warrants Summary
Reversal.
In response to petitioner's Daubert challenge to Dr. Barnett's opinion the
District Court abdicated its "gatekeeper" role, and ruled that petitioner could
only "rebut Dr. Barnett's expert medical opinion with the opinion of another
medical expert." (ECF No. 83 at 6). It made no Daubert findings or mention of
Rule 702. It did not mention the defendants' burden of establishing the
admissibility of the opinion. Daubert, 509 U.S. at 592 n. 10. It provided no
analysis or explanation for its decision to admit the opinion. There is no
indication in the record that it found the opinion reliable other than the fact
16

it was admitted over petitioner's reliability objections.
According to the Ninth Circuit the District Court "did not abuse its
discretion," with such handling of petitioner's Daubert and Rule 702 objections. '
(App. A at 3). This is an example of the type of extreme legal error that calls
for the Court's summary reversal powers.
The Ninth Circuit's holding conflicts with the Court's decisions, and the
decisions of ail the Circuit Courts of Appeals. Before a need to "rebut" Dr.
Barnett's opinion arises that opinion must survive exacting threshold standards
of reliability. It cannot.
The gatekeeping role of district courts is mandatory. There is no discretion
to abandon the gatekeeping function. Kumho Tire v. Carmichael, 526 U.S. 137,
158-59 (1999) (SCALIA, J., concurring); General Electric v. Joiner, 522 U.S.
136, 142 (1997). When faced with a party's objection a district court "must
adequately demonstrate by specific findings on the record that it has performed
its duty as gatekeeper. In the absence of such findings we must conclude that
the district court abused its discretion in admitting such testimony." Dodge
v. Cotter Corp., 328 F.3d 1212, 1223 (10th Cir. 2003). The abuse of discretion
here should have been obvious to the Ninth Circuit. See Kumho at 147-49.
Dr. Barnett provided a "medical" opinion that the Courts below deemed
automatically dispositive of an Eighth Amendment claim. The opinion was inaccurate
by over 15 months with regard to petitioner's lumbar spinal injury, the treatment
of which Dr. Barnett was supposed to be opining upon. (See ECF No. 30-7 at 1516, It "does not appear that he suffered any physical impairment for the 18 months
from admission to SOL until some later time."); (See App. K, Medical Records
excluded from defendants' motion for summary judgment, ECF No. 72 at 195,
revealing "L-SPINE" injury requiring "chronic care" sustained within 3 months
of admission to SOL.).
17

Dr. Barnett confirms at deposition what all medical experts know, "you can't
treat," until you "make a diagnosis." (Barnett Dep. at 171:12). His opinion
confirms that there is no diagnosis of petitioner's medical condition in this
record. Quite apparently then, the defendants failed to make one. It is long
established in federal law that pain is a symptom not a medical condition. See
e.g. Smith y♦ Office of Personnel Management, 784 F.2d 397, 398 (Fed. Cir. 1986)
("[H]e has experienced pain, muscle spasm, and other symptoms associated with
back injuries."). The most Dr. Barnett can offer the Court with regard to
petitioner's medical condition is the unhelpful assertion that his CLBP is
"possibly related" to normal aging. (EOF No. 30-7 at 15; see id. at 5 n. 3).
Hence, his conclusion, upon which the judgment rests, that the defendants'
"treatment" of petitioner met authoritative professional standards is completely
unfounded.
Dr. Barnett provides the federal court with no recognized methodology, no
differential diagnosis, and no information whatsoever about the appropriate
standard of care. There was no basis in medical knowledge or connection to medical
literature provided. There was not even a suggestion that his opinion reflects
the views of the relevant scientific community.
Dr. Barnett's opinion testimony is nothing more than the bald assurance he
provides 1QQ% of the time that the defendants did a great job. The admission
of such "evidence" by the Courts below was an extreme departure .from the exacting
requirements of federal law.
B. The Ninth Circuit' s Holding Is Truly Indefensible And Poses A Sinister Threat
To The Institutional Integrity Of The Federal Courts.
Dr. Barnett's opinion testimony could not have survived even the most
rudimentary of Daubert inquiries. For obvious reasons Dr. Barnett almost never
testifies at trial. (Barnett Dep. at 20). What assurance does the Court have
that the Ninth Circuit's unpublished affirmance of a total abdication of the
18

trial court's gatekeeping obligation was a one-time blunder? The fact that local
district courts have utilized this same holding for over a decade indicates a
long-term, and unacceptable, degradation of the integrity of federal judicial
proceedings in the Ninth Circuit.
This holding has exacted a terrible price on the dignity of man in the face
of known "longstanding, continuing constitutional violations." Plata, 179 L.Ed.2d
at 994. The Eighth Amendment has been indefinitely nullified in the Ninth Circuit
where it is needed the most. The Court should not tolerate such corruption of
the judicial institution. It should certainly not allow what is shown by this
record to ever happen again. The Court's review is warranted.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
MICHAEL WITKIN

Date: August 4, 7070

19

